DOE/IG-0533




  INSPECTION                          INSPECTION OF
    REPORT                     THE DEPARTMENT OF ENERGY’S
                                    AUTOMATED EXPORT
                                     CONTROL SYSTEM




                                     DECEMBER 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                              U.S. DEPARTMENT OF ENERGY
                                    Washington, DC 20585

                                        December 7, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman /s/
                      Inspector General

SUBJECT:              INFORMATION: Report on “Inspection of the Department of Energy’s
                      Automated Export Control System”

BACKGROUND

The National Defense Authorization Act for Fiscal Year 2000 (NDAA for FY 2000) contained a
provision that not later than March 30 of each year the President will submit to Congress,
beginning in the year 2000 and ending in the year 2007, an annual report on the Government’s
policies and procedures with respect to the export of technologies and technical information with
potential military applications to countries and entities of concern. Under the Act’s provisions,
to assist in this process, annual audits in this area are to be conducted by the Inspectors General
of the Departments of Energy, Commerce, Defense, and State. An interagency working group,
comprised of representatives from the Offices of Inspector General of Energy, Commerce,
Defense, State, and the Treasury, selected automated export control systems as the topic for the
2002 annual audit report.

The purpose of our inspection was to determine the adequacy of Energy’s current automated
system for processing export license applications. The objectives were to: (1) determine
whether the Proliferation Information Network System (PINS), which contains Energy’s Export
Information System, provides sufficient capability to support export licensing activities by
Energy’s Office of Export Control Policy and Cooperation (ECPC Office), and (2) review
actions by Energy in support of Defense’s United States Export Systems (USXPORTS) Program
Management Office to establish a common electronic interface to connect automated export
licensing systems of various Federal agencies. We also sought to determine the status and
disposition of recommendations in a report issued in March 2000, which concerned our
inspection of Energy’s export license process for foreign national visits and assignments. This
report was prepared as part of the annual audit for 2000 required by the NDAA for FY 2000.

RESULTS OF INSPECTION

We concluded that the PINS automated system is adequate to support the ECPC Office in fulfilling
its responsibilities regarding the review of export license applications. We found that access to PINS
is limited; that data in PINS is secure; and that PINS provides an adequate audit trail for assessing
Energy’s performance in reviewing export license applications.
Regarding Energy’s interface with other agencies, we concluded that improvements are needed in
communication between Energy and State regarding export license applications referred by State to
Energy for review. We found that Energy does not have access to information maintained by State
regarding final disposition (i.e., approval/denial of license applications and the purchase and/or
shipment of commodities) of export license applications for munitions commodities. Although
communication between Energy and Commerce appears adequate, Energy does not receive
information regarding the purchase and/or shipment of the commodity. We determined that
information about the actual shipment of a commodity will be available in the Automated Export
System (AES), which is being developed jointly by the United States (U.S.) Customs Service at
Treasury and the U.S. Census Bureau at Commerce. We concluded that Energy should coordinate
with Treasury, which is the lead agency for the development of AES, to obtain access to AES when
available.

We also concluded that, although Energy has provided support to the USXPORTS Program
Management Office when requested, Energy has not had a significant role in the development of the
USXPORTS automated system. We noted that the USXPORTS Program Management Office has
not sought active participation from Energy in the development of a common electronic interface
among Federal agencies for reviewing export license applications since April 2001.

With regard to the six open recommendations in our March 2000 report, one recommendation has
been administratively closed, while five recommendations remain open pending issuance of an
Energy order regarding foreign visits and assignments. When issued, we will assess the
responsiveness of the Energy order to our recommendations, and determine whether the remaining
recommendations should be closed.

MANAGEMENT REACTION

Management concurred with our recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Acting Assistant Deputy Administrator for Nonproliferation and International Security
INSPECTION OF THE DEPARTMENT OF ENERGY’S
AUTOMATED EXPORT CONTROL SYSTEM

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective………………………………… 1

              Observations and Conclusions……………………………           2

              Background…………………………………………………. 3


              DETAILS OF FINDINGS………………………………….. 5

              PINS Features Assist Export License Reviews…………   5

              PINS Access Limited and Data Protected……………….     6

              PINS Recently Reaccredited……………………………… 7

              License Application Review Process…………………….. 7

              PINS Does Not Electronically Interface
               With Other Agencies……………………………………… 9

              PINS Provides Adequate Audit Trail……………………… 11

              PINS Funding……………………………………………….. 11

              OIG Recommendations Led to Improvements……….….. 12

              Energy Interface With USXPORTS…………………….…. 12


              RECOMMENDATIONS………………………………….…. 14

              MANAGEMENT COMMENTS………………………….…. 15

              APPENDICES

              A. Scope and Methodology……………………….………. 16

              B. Status of Recommendations From Prior Reports…… 17
Overview
INTRODUCTION    The export of commodities and technologies by the United States is
AND OBJECTIVE   encouraged by both the private sector and the Federal Government.
                These exports help to improve our position in the global economy
                and are in the national interest of the country. However, exports of
                commodities and technologies, without regard to whether they may
                significantly contribute to the military potential of individual
                countries or combination of countries or enhance the proliferation
                of weapons of mass destruction, may adversely affect the national
                security of the United States. The Federal Government, therefore,
                implements several laws, Executive Orders, and regulations to
                control the export of certain commodities and technologies, which
                require a license for export. The license applications are processed
                and tracked by numerous Federal agencies through various
                automated databases. Collectively, these databases are intended to
                enable an appropriate level of review and coordination for exports
                of these commodities and technologies.

                Section 1402(b) of the National Defense Authorization Act (NDAA)
                for Fiscal Year (FY) 2000 provides that not later than March 30 of
                each year beginning in the year 2000 and ending in the year 2007, the
                President shall transmit to Congress a report by the Inspectors General
                of, at a minimum, the Departments of Defense, State, Commerce, and
                Energy of the policies and procedures of the United States
                Government with respect to the export of technologies and technical
                information with potential military applications to countries and
                entities of concern. Section 1204 of the NDAA for FY 2001 amended
                Section 1402(b) and requires the Inspectors General to include in each
                annual report the status of the implementation or other disposition of
                recommendations that have been set forth in previous annual reports
                under Section 1402(b).

                An interagency working group, comprised of representatives from the
                Offices of Inspector General (OIG) of the Departments of Commerce,
                Defense, Energy, State, and the Treasury selected automated export
                licensing systems used to process export license applications as the
                topic for the FY 2002 annual review. As part of its review, the
                interagency group attempted to determine if Defense’s Office of U.S.
                Export Systems (USXPORTS) Program Management was establishing
                a common electronic interface to connect the automated export
                licensing systems of various Federal agencies.

                The purpose of our inspection was to determine the adequacy of
                Energy’s current automated system for processing export license
                applications. The objectives were to: (1) determine whether the
                Proliferation Information Network System (PINS), which contains
                Energy’s Export Information System (EIS), provides sufficient


Page 1                               Inspection of the Department of Energy’s
                                     Automated Export Control System
                                    capability to support export licensing activities by the Office of Export
                                    Control Policy and Cooperation (ECPC Office), 1 and (2) review
                                    actions by Energy in support of the USXPORTS Program
                                    Management Office. We also sought to determine the status and
                                    disposition of recommendations in our annual report for FY 2000,
                                    which was issued in March 2000, concerning our inspection of
                                    Energy’s export license process for foreign national visits and
                                    assignments. 2

OBSERVATIONS                        We concluded that the PINS automated system is adequate to support
AND CONCLUSIONS                     the ECPC Office in fulfilling its responsibilities regarding the review
                                    of export license applications. We found that access to PINS is limited
                                    and that data in PINS is secure. We also found that PINS contains
                                    helpful features to assist in the license application review process and
                                    provides an adequate audit trail for assessing Energy’s performance in
                                    reviewing export license applications.

                                    Regarding Energy’s interface with other agencies, we concluded that
                                    improvements are needed in communication between Energy and State
                                    regarding export license applications referred by State to Energy for
                                    review. We found that Energy does not have access to information
                                    maintained by State regarding final disposition (i.e., approval/denial of
                                    license applications and the purchase and/or shipment of commodities)
                                    of export license applications for munitions commodities. Although
                                    communication between Energy and Commerce appears adequate,
                                    Energy does not receive information regarding the purchase and/or
                                    shipment of the commodity. We determined that information about
                                    the actual shipment of a commodity will be available in the Automated
                                    Export System (AES), which is being developed jointly by the U.S.
                                    Customs Service (Customs) at Treasury and the U.S. Census Bureau
                                    (Census) at Commerce. We concluded that Energy should coordinate
                                    with Treasury, which is the lead agency for the development of AES,
                                    to obtain access to AES when available.

                                    We also concluded that, although Energy has provided support to the
                                    USXPORTS Program Management Office when requested, Energy
                                    has not had a significant role in the development of the USXPORTS
                                    automated system. We noted that the USXPORTS Program
                                    Management Office has not sought active participation from Energy in


1
    The ECPC Office, formerly the Office of Nuclear Transfer and Supplier Policy, is in Energy’s National Nuclear
    Security Administration. It is located within the Office of Arms Control and Nonproliferation, Office of Defense
    Nuclear Nonproliferation.
2
    This report is entitled “Inspection of the Department of Energy’s Export License Process for Foreign
    National Visits and Assignments,” DOE/IG-0465, March 2000. Our annual report for FY 2001, entitled
    “Inspection of the Department of Energy’s Role in the Commerce Control List and the U.S. Munitions List,”
    INS-O-01-03, March 2001, did not contain any recommendations.


Page 2                                                                    Observations and Conclusions
                                     the development of a common electronic interface among Federal
                                     agencies for reviewing export license applications since April 2001.

                                     With regard to the six open recommendations in prior reports prepared
                                     in accordance with the provisions of Section 1402(b) of the NDAA for
                                     FY 2000, one recommendation has been administratively closed, while
                                     five recommendations remain open pending issuance of an Energy
                                     order regarding foreign visits and assignments. When issued, we will
                                     assess the responsiveness of the order to our recommendations, and
                                     determine whether the remaining recommendations should be closed.
                                     Details about the open recommendations can be found in Appendix B.

BACKGROUND                           Energy’s review of export license applications for nuclear dual-use 3
                                     and munitions commodities is based upon U.S. statutes, regulations,
                                     and Executive Orders governing export controls.

                                     The principal legislative authorities governing the export control of
                                     nuclear dual-use commodities are the Export Administration Act of
                                     1979 (EAA), as amended (50 U.S.C. 2401 et seq.), and the Nuclear
                                     Non-Proliferation Act of 1978, as amended (22 U.S.C. 3201 et seq.).
                                     The EAA expired in 1994. However, the provisions of the EAA have
                                     been continued and amended through Executive Orders. Most
                                     recently, Executive Order 13222, dated August 17, 2001,
                                     “Continuation of Export Control Regulations,” extended the authority
                                     and applicability of the EAA.

                                     Commerce uses the Export Administration Regulations (EAR) (15
                                     CFR Part 730 et seq.) to implement the EAA. Per the EAR,
                                     Commerce refers export license applications for dual-use
                                     commodities to Energy for review if the commodity is controlled
                                     for nuclear nonproliferation reasons. Energy has 30 days to review
                                     the application and provide a recommendation to Commerce
                                     regarding approval, approval with conditions, or denial of the
                                     license application.

                                     Section 38 of the Arms Export Control Act (22 U.S.C. 2778)
                                     authorizes the President to control the export and import of defense
                                     articles and defense services (munitions commodities). State
                                     administers export controls on all munitions pursuant to the
                                     International Traffic in Arms Regulations (22 C.F.R. Part 120 et
                                     seq.) and reviews the pertinent export license applications.
                                     Although State is not required to refer applications to Energy, State

3
    Some controlled commodities are designated as “dual-use,” that is, goods and technologies that have both civilian
    and military uses. The U.S. Government designates some dual-use commodities as “nuclear dual-use” items,
    which are controlled for nuclear nonproliferation purposes.



Page 3                                                                                             Background
         routinely refers applications for nuclear-related munitions
         commodities to Energy for review.

         The Energy OIG has issued four reports pertaining to the export
         licensing process. These reports were part of interagency efforts
         by the OIGs of several Federal agencies to examine the adequacy
         of the U.S. export controls to protect against the transfer of
         sensitive technical information and technologies to countries and
         entities of concern. These reports are: “Inspection of the
         Department of Energy’s Role in the Commerce Control List and
         the U.S. Munitions List,” INS-O-01-03, March 2001; “Inspection
         of the Department of Energy’s Export License Process for Foreign
         National Visits and Assignments,” DOE/IG-0465, March 2000;
         “The Department of Energy’s Export Licensing Process for Dual-
         Use and Munitions Commodities,” DOE/IG-0445, May 1999; and
         “Report on Inspection of the Department’s Export Licensing
         Process for Dual-Use and Munitions Commodities,” DOE/IG-
         0331, August 1993.




Page 4                                                        Background
Details of Findings
PINS Features                        PINS is a web-based computer system utilized by the ECPC Office
Assist Export                        to meet Energy’s requirements and deadlines for reviewing export
License Reviews                      license applications referred to Energy by other agencies. PINS
                                     came on line in 1993 and was fully operational in 1994. PINS is
                                     designed to track weaponization and proliferation activities, which
                                     include export licensing activities, and incorporate this information
                                     with intelligence information. The EIS is the system within PINS
                                     that tracks export license applications. PINS includes a classified
                                     e-mail system to facilitate information exchange on export control
                                     and nuclear nonproliferation issues and a search engine facilitating
                                     access to current reference materials, such as Energy and Federal
                                     regulations, international treaties, State cables, technical
                                     information, and nonproliferation studies conducted by Energy
                                     laboratories. Collectively, PINS contains data on about 100,000
                                     export license cases reviewed by Energy from the late 1970s to
                                     date.

                                     A variety of display features and search functions are included in
                                     PINS to assist in the review of export cases. For example, the
                                     “case clock” screens prioritize each export case being reviewed
                                     according to the elapsed time within the 30-day timeframe allotted
                                     for Energy’s review. The font and color on the screens change as
                                     the end of the 30-day timeframe nears and changes again when the
                                     30 days are exceeded. Also, information that can be obtained from
                                     the case listings include security classification levels; the name of
                                     the ECPC Office licensing officer; the case type; the end-user
                                     country or countries; and the name of the end user. In addition, the
                                     EIS search functions can produce lists of cases having common
                                     criteria, such as the same end user, the same text in a description,
                                     or similar case numbers. Customized searches based upon user-
                                     selected criteria can be conducted and saved for future use.

                                     PINS is frequently upgraded to improve the export license
                                     application review process. For example, the search functions and
                                     available reference sources in PINS have been expanded since the
                                     Energy OIG issued its report in May 1999 on the Department’s
                                     export licensing process. Also, data provided by the Nuclear
                                     Suppliers Group 4 concerning export license denials by Group
                                     members and information on proposals, such as joint projects
                                     between Energy and nations of the former Soviet Union, have been
                                     incorporated into the PINS reference materials. In addition, the
                                     ability to perform keyword searches of EIS data has been
                                     incorporated into PINS. Currently, an effort is underway to

4
    The Nuclear Suppliers Group is comprised of 39 member countries and sets controls on nuclear material,
    equipment, and technology unique to the nuclear industry, and dual-use items that have both nuclear and non-
    nuclear commercial and military applications.


Page 5                                                                                      Details of Findings
                                     determine how to standardize names within PINS to avoid
                                     variances in individual/company names such as “IBM,” “I.B.M.,”
                                     and “International Business Machines.”

PINS Access Limited                  Energy has established detailed procedures to limit access to the
and Data Protected                   PINS classified databases and to protect the information contained
                                     in the databases. PINS is classified at the “SECRET/
                                     RESTRICTED DATA” level and is therefore subject to limited
                                     access on a need-to-know basis. 5 The system is password
                                     protected to ensure access by only specified Energy and Energy
                                     contractor personnel. All communication lines between servers are
                                     protected with National Security Agency approved NES and STU-
                                     III units. Terminals are located in secure areas at Energy
                                     Headquarters and at the sites that participate in the review of
                                     export cases. PINS can be accessed by ECPC Office personnel at
                                     Energy Headquarters and by authorized users at Energy
                                     laboratories/facilities (laboratories) that assist in the license review
                                     process. These laboratories include Los Alamos National
                                     Laboratory (Los Alamos), Lawrence Livermore National
                                     Laboratory (Livermore), Pacific Northwest National Laboratory,
                                     Sandia National Laboratory-New Mexico, Argonne National
                                     Laboratory (Argonne), the East Tennessee Technology Park at Oak
                                     Ridge (Oak Ridge), and the Savannah River Site.

                                     We reviewed data security, and whether comments or
                                     recommendations can be changed once entered into PINS. We
                                     determined that although PINS users are permitted to view, extract,
                                     and print information from the PINS server, users do not have the
                                     ability to change or delete data or recommendations. Access by
                                     Energy and Energy contractor personnel to PINS and the EIS is
                                     restricted to ensure that users can only access screens and functions
                                     that relate to their roles in the reviewing process. For example, the
                                     ECPC Office Team Leader, who has the authority for final
                                     approval or denial of Energy’s recommendations, can access PINS
                                     subsystems that cannot be accessed by a contractor who performs
                                     license application reviews at an Energy laboratory. Also, ECPC
                                     Office licensing officers can only access the approval screens
                                     related to the specific export cases that they have the authority to
                                     review. In addition, the ECPC Office Team Leader for Licensing
                                     Operations has access to final approval screens, which cannot be
                                     accessed by other ECPC Office licensing officers.




5
    Restricted Data concerns such things as the design, manufacture or utilization of nuclear weapons or the
    production of special nuclear materials.


Page 6                                                                                       Details of Findings
PINS Recently         As a classified automated system, PINS must comply with current
Reaccredited          Energy security guidelines regarding the contents of and access to
                      classified computer systems. These security guidelines are found
                      in DOE Order 471.2A, “Information Security Program,” dated
                      March 27, 1997; DOE Manual 471.2-2, “Classified Information
                      Systems Security Manual,” dated August 3, 1999; and the “DOE
                      Headquarters Facilities Master Security Plan,” dated January 1995
                      (Change 8, May 1999). These guidelines were promulgated to
                      ensure the protection and control of classified and sensitive
                      information contained in Energy’s classified computer systems.
                      To be compliant with these guidelines, every classified information
                      system at Energy must be reviewed and accredited by a designated
                      Energy official. Following the initial accreditation, the systems are
                      reviewed and reaccredited at least once every three years.
                      According to ECPC Office and Los Alamos officials, PINS was
                      reaccredited as a classified system in June 2001.

License Application   Export license applications referred to Energy by Commerce and
Review Process        State, once entered into PINS, are processed in a similar manner.
                      Energy’s process for reviewing export license applications
                      received from Commerce regarding dual-use commodities, which
                      represents the majority of export license applications reviewed by
                      Energy, is shown in Figure 1 below. Energy also processes export
                      license applications for munitions commodities. These are
                      provided by State in a manner similar to applications received from
                      Commerce, except that the applications are not transmitted
                      electronically. The license applications are entered into PINS by
                      Los Alamos.

                      An ECPC Office licensing officer is assigned responsibility for
                      reviewing each license application received by Energy. The
                      licensing officer determines which laboratory or laboratories will
                      review the application. Typically, there are two types of reviews
                      conducted for each license application: a review of the technical
                      aspects of the application and a review of the commodity’s end-use
                      and the end-user. Livermore is the only laboratory that performs
                      reviews of the end-user. The ECPC Office licensing officer will
                      usually designate one of the laboratories with access to PINS to
                      conduct the primary analysis of the application based upon the
                      laboratory’s expertise. For example, Oak Ridge has machine tool
                      expertise and will typically perform the technical reviews of
                      machine tool-related applications. However, if they have an
                      interest, any of the laboratories with access to PINS may enter
                      comments in PINS to the ECPC Office licensing officer. Upon
                      completion of their analyses, the laboratories enter the results of
                      their reviews into PINS. While the laboratories are conducting



Page 7                                                               Details of Findings
         their analyses, the ECPC Office licensing officer also conducts a
         review of the license application and enters his/her comments into
         PINS.


                      Energy Export License Review Process

                  License Application
                     (LA) submitted




                   Department of
                    Commerce's               PROLIFERATION INFORMATION NETWORK SYSTEM (PINS)
                      (DOC's)                                 Classified Network
                  Bureau of Export
                Administration (BXA)
                                                                                       Lab(s)*
                                                                                       provide
                 BXA database updated                                     ANL   technical and   ETTP
                  with LA information                                     LANL End-Use/User     PNNL
                                                                           LLNL    analysis    SNL
                                                                                              SR



                                                                                                                      ECPC
                        BXA
                      Database
                                              LA information                                                         Lab(s) analysis reviewed,
                                          reviewed, assigned to                                                       recommendation made to
                                           appropriate lab(s) for                   PINS Database                   approve or deny application,
                                                analysis.                               LANL                                with/without
                                                                                                                             conditions
                                                          ECPC

                         DOC

                                                                                          LANL
                       Energy


                                                                                                 Unclassified
                         LANL                                              PINS updated
                                                                                              recommendations
                                                                                                 printed and
                                                                                                subjected to a
                                                                                                classification
                             LA data
                          downloaded to                                                             review
                            magnetic
                              media




                                   LANL
                Recommendations
                   typed in and
                 uploaded to BXA
                     database
                                                            *   Department of Energy Organizations

                                                                     ANL = Argonne National Laboratory
                                                                    LANL = Los Alamos National Laboratory
                                                                    LLNL = Lawrence Livermore National Laboratory
                                                                    ETTP = East Tennesse Technology Park
                                                                    PNNL = Pacific Northwest National Laboratory
                                                                     SNL = Sandia National Laboratory
                                                                      SR = Savannah River




                                                                    FIGURE 1

         After all comments are entered into PINS, the ECPC Office
         licensing officer reviews the comments and reconciles any
         differences of opinions between the laboratories and between the
         laboratories and the ECPC Office. The ECPC Office licensing
         officer prepares a recommendation to either deny the license,
         approve the license, or approve the license with conditions. He/she
         can choose from a template of commonly used recommendations
         or create a case-specific recommendation. The ECPC Office Team
         Leader reviews the recommendation and, when approved,
         transmits the recommendation to Los Alamos to be downloaded
         from PINS and transmitted to the referring agency.


Page 8                                                                                                       Details of Findings
PINS Does Not    There is no electronic interface between PINS, which is a
Electronically   classified automated system, and other Federal agencies. As
Interface With   discussed previously, the export license applications, which are
Other Agencies   unclassified, are received by Energy from other agencies and
                 entered into PINS by Los Alamos. When Energy completes its
                 review of the license application, Energy’s recommendations,
                 which are unclassified, are downloaded from PINS by Los Alamos
                 and transmitted to the referring agency.

Interface With   Within Commerce, the Bureau of Export Administration (BXA)
Commerce         refers export license applications for dual-use commodities to
                 Energy for review. The applications are sent electronically from
                 BXA’s unclassified database, the Export Control Automated
                 Support System (ECASS), to a terminal maintained by Los
                 Alamos. Due to the classified nature of PINS and the unclassified
                 nature of ECASS, the two systems cannot have a common
                 interface. Therefore, to access the export license application data
                 in ECASS, Los Alamos downloads the data from ECASS onto a
                 “clean” disk and uploads the information from the disk into PINS
                 where it can be processed in a classified environment. Energy’s
                 final recommendations regarding the license application are
                 printed from PINS and reviewed for possible classified material.
                 When the classification review is completed, the printed
                 information is typed into an unclassified system, formatted, and
                 uploaded into ECASS.

                 Communication between Commerce and Energy officials on
                 export license applications appears adequate. ECPC Office
                 officials told us that Commerce is responsive in getting
                 information to them, while BXA officials said that, in general,
                 Energy’s responses to applications referred by Commerce are
                 timely. We were informed that Commerce is currently developing
                 a successor system to ECASS, entitled the Electronic Supporting
                 Documentation (ESD) system. A Los Alamos official informed us
                 that Energy would be able to retrieve data from ESD in a similar
                 manner as data is currently being retrieved from ECASS.

                 The 1993 OIG report on Energy’s export licensing process
                 contained a recommendation that Energy coordinate with
                 Commerce to ensure access by Energy to information within
                 Commerce regarding the final disposition (i.e., approval/denial of
                 license applications and the purchase and/or shipment of
                 commodities). Although Energy currently receives information
                 from Commerce regarding the approval/denial of export license
                 applications referred by Commerce, Energy does not receive
                 information regarding the purchase and/or shipment of the



Page 9                                                          Details of Findings
                       commodity. This information would assist Energy in its analysis
                       and assessment of potential proliferation concerns related to the
                       license application. We were told that Commerce currently does
                       not receive purchase/shipment information from Customs.
                       According to Treasury officials, AES being developed jointly by
                       Customs and Census will contain data about the actual shipment of
                       a commodity. Treasury is the lead agency for the development of
                       AES and has indicated that Energy will be able to access AES in
                       the future.

Interface With State   Although State is not required to refer export license applications
                       for munitions commodities to Energy for comment, State has
                       routinely referred these license applications to Energy. However,
                       Energy does not have electronic access to State for the purpose of
                       reviewing the license applications. Within State, the Office of
                       Defense Trade Controls (DTC) refers the export license
                       applications to Energy in hard-copy format. The applications from
                       State are scanned or typed into PINS and, once entered into PINS,
                       are processed in the same manner as a license application for a
                       dual-use commodity referred by Commerce. After the ECPC
                       Office completes its review, Energy’s recommendations are
                       included in a letter prepared by Los Alamos and mailed to State.

                       Although an electronic interface does not exist between Energy
                       and State for the purpose of reviewing export license applications,
                       ECPC Office officials told us that they do not perceive this as a
                       major problem. They said that Energy receives only a small
                       number of license applications from State and it requires only
                       about 45 minutes to enter an application into PINS. We were told
                       by a DTC official that State referred only 22 applications to
                       Energy for review during the period FY 1997 through FY 2000.

                       ECPC Office officials told us, however, that communications
                       between Energy and State concerning export license applications
                       for munitions commodities could be improved. ECPC Office
                       officials stated that they are contacted by State officials only when
                       there is a problem regarding a license application. They said that
                       State officials rarely respond to letters and telephone calls from
                       Energy regarding the license applications. The ECPC Office still
                       does not receive data from State regarding the final disposition of
                       munitions cases, which was the focus of a prior OIG
                       recommendation. We were told by a DTC official that their
                       current focus is not with State’s interaction and electronic
                       connectivity with Energy, rather DTC is focused on improving
                       connectivity between State and Defense. The DTC official said
                       that there currently are no plans for changing how State interacts



Page 10                                                                Details of Findings
                                    with Energy in the review of license applications for munitions
                                    commodities. ECPC Office officials said that they do not see an
                                    electronic interface being established between State and Energy in
                                    the foreseeable future.

Interface With                      Energy does not receive export license applications from other
Other Agencies                      Federal agencies for review. However, there are interactions
                                    between Energy and other Federal agencies concerning export
                                    license applications. For example, ECPC Office licensing officials
                                    rely upon trade reports prepared by the Central Intelligence
                                    Agency (CIA) for intelligence information about a potential
                                    importer. Energy officials access the trade reports through a
                                    classified network, InteLink, which was developed by the CIA.
                                    We understand that, with the exception of Argonne, 6 InteLink can
                                    be accessed at all the Headquarters and field sites that have access
                                    to PINS. Livermore officials use InteLink to assist their
                                    intelligence analysis of importers as part of their end-user review
                                    of license applications in PINS.

                                    ECPC Office officials said they do not need to exchange data with
                                    Defense or Treasury for the purpose of reviewing license
                                    applications. They also said that they rarely exchange data on
                                    license applications with the Nuclear Regulatory Commission
                                    (NRC). ECPC Office officials said, however, that NRC sometimes
                                    provides Energy with observations about license applications,
                                    which they plan to add into PINS in the future.

PINS Provides                       We reviewed whether Energy’s process for reviewing export
Adequate Audit Trail                license applications leaves a reliable audit trail for addressing
                                    Energy’s performance. We determined that considerable
                                    information regarding each license application is retained in PINS.
                                    According to an ECPC Office official, everything that is done
                                    regarding a license application is captured in the case history in
                                    PINS for each license application. Each license application
                                    history, for example, contains dates that Energy received the
                                    application for review and subsequently provided its
                                    recommendation to Commerce; comments by Energy analysts who
                                    reviewed the application; comments by the ECPC Office licensing
                                    officer; and Energy’s recommendation, including a description of
                                    any conditions on the license.

PINS Funding                        According to an ECPC Office official, the obligated funds for the
                                    development, maintenance, and staffing for the PINS database at
                                    Energy Headquarters and the associated laboratories for FY 2000
                                    was $3,826,505, and for FY 2001 was $3,817,043. These amounts
6
    Access to InteLink is through an Energy Field Intelligence Element (FIE). A FIE is not located at Argonne.


Page 11                                                                                    Details of Findings
                          do not include carryover funds of $431,800 from FY 1999 to FY
                          2000 and $432,700 from FY 2000 to FY 2001. The projected
                          funding for FY 2002 is $3,477,000, although $4,317,000 was
                          requested by the national laboratories. Figures on projected
                          funding for FY 2003 and FY 2004 are not available. The ECPC
                          Office official stated that due to budget shortfalls, even the
                          projected funding is not attainable without reprogramming funds in
                          FY 2002.

OIG Recommendations At least three recent changes to the export license application
Led to Improvements review process in PINS were the result of previous Energy OIG
                    recommendations. According to an ECPC Office official, the
                    ECPC Office licensing officer reviewing an application now
                    incorporates the basis for his/her approval or denial of an
                    application into PINS for future reference. We were also told that
                    the licensing officer’s superior is now reviewing the prepared
                    recommendations as a second check and performs the final sign-
                    off on a recommendation in PINS before it is sent to the referring
                    agency. In addition, Energy now electronically receives
                    supporting documents and information from Commerce
                    concerning an export license application.

Energy Interface          In an effort to improve the way the Federal Government processes
With USXPORTS             export license applications, the USXPORTS Program Management
                          Office at Defense is attempting to develop an automated system
                          that the entire Federal Government, including Energy, can access
                          to expedite the license application review process. The primary
                          Federal agencies involved in the development of such a system are
                          Defense, Commerce and State. As of October 2001, plans for the
                          USXPORTS automated system have not been finalized.

                          ECPC Office officials told us that they supported the concept of a
                          new centralized export licensing system that could save substantial
                          time and money for Government and industry. Energy officials
                          attended meetings of the USXPORTS working group from October
                          2000 through April 2001, and have demonstrated PINS on two
                          occasions for the USXPORTS Program Management Office.
                          However, ECPC Office officials said that there has been minimal
                          contact with Energy by USXPORTS Program Management Office
                          officials since April 2001, except for periodic emails received by
                          the ECPC Office. An ECPC Office official told us in October
                          2001 that the ECPC Office was attempting to initiate a meeting
                          with the USXPORTS Program Management Office to discuss
                          possible future involvement by Energy in the USXPORTS
                          automation initiative.




Page 12                                                                 Details of Findings
          ECPC Office officials characterized the working group meetings
          by the USXPORTS Program Management Office as “one sided.”
          They said that the meetings primarily consisted of USXPORTS
          Program Management Office officials providing general briefings
          without asking the attendees from other agencies for their input.
          They also said that Energy received no feedback from the
          USXPORTS Program Management Office regarding the two PINS
          briefings. A USXPORTS representative told us that there is no
          specific role for Energy in the USXPORTS initiative at this time.
          He said that except for Defense, Commerce and State, Energy and
          other agencies are taking a “wait and see” attitude towards
          USXPORTS until issues such as the classification level of the
          planned database have been decided. As of October 2001, no
          decision has been made as to the classification level of the
          proposed USXPORTS automated system.

          ECPC Office officials told us that many of the existing systems for
          processing export license applications, such as ECASS at
          Commerce, are unclassified. They said, however, that because of
          the type of data in PINS, i.e., “SECRET/RESTRICTED DATA,”
          PINS could not be changed to an unclassified system and could not
          be openly accessed by other agencies. Therefore, regardless of the
          classification of the proposed USXPORTS automated system,
          ECPC Office officials said that PINS must remain a classified
          system.

          ECPC Office officials said that if the proposed USXPORTS
          automated system was classified at the “SECRET” level it could be
          possible to provide an interface with PINS. They said that the data
          in PINS classified as “RESTRICTED DATA” represents a small
          amount of export data at Energy and could possibly be
          compartmentalized into a “stand-alone” system, which would
          allow access by other agencies to the “SECRET” data in PINS.

          ECPC Office officials perceive the planned USXPORTS
          automated system as a duplication of existing systems and
          databases. They expressed concern about not only whether other
          agencies will contribute to the USXPORTS system, but also
          whether the USXPORTS Program Management Office is bringing
          together all the appropriate agencies in the development process.
          According to ECPC Office officials, a new or expanded export
          licensing system would put a further strain on the ECPC Office’s
          budget for new hardware and software, as well as impact staff
          workspace.




Page 13                                                 Details of Findings
                  We subsequently learned that during a meeting on October 18,
                  2001, the USXPORTS Program Management Office was offered
                  the use of the PINS architecture and consultations with Los
                  Alamos and the University of New Mexico on the use of the EIS
                  application software and the database manager, ORACLE. We
                  understand that the USXPORTS Program Management Office is
                  interested in evaluating PINS capabilities against its
                  (USXPORTS’) requirements document. We were told that
                  USXPORTS Program Management Office officials understand
                  they would have to reimburse Los Alamos and the University of
                  New Mexico for any support provided.

                  We were told by an ECPC Office official that in Energy’s opinion,
                  the USXPORTS project would benefit greatly from the technical
                  expertise and experience gained by Los Alamos and the University
                  of New Mexico in developing, maintaining, and improving PINS
                  over the last eight years. According to the ECPC Office official,
                  this cooperation would greatly enhance the plan of the
                  USXPORTS Program Management Office to create a state-of-the-
                  art interconnected, interagency export control system in a timely
                  manner.

RECOMMENDATIONS   Information maintained by Commerce, State, and Treasury on the
                  final disposition of export license applications could assist Energy
                  laboratories in providing assessments and analyses of the nuclear
                  capabilities and developments of proliferant countries.

                  Therefore, we recommend that the Assistant Deputy Administrator
                  for Arms Control and Nonproliferation:

                  1. Coordinate with the Departments of Commerce and Treasury
                     to ensure access by Energy to information within the
                     Automated Export System regarding the purchase and/or
                     shipment of commodities under an approved export license,
                     and develop guidelines for Energy’s access to the information.

                  2. Coordinate with the Department of State to:

                     a. Improve communications regarding reviews of export
                        license applications for munitions commodities, and

                     b. Ensure access by Energy to information maintained by
                        State regarding final disposition (i.e., approval/denial of
                        license applications and the purchase and/or shipment of
                        commodities) of export license applications and develop
                        guidelines for Energy’s access to the information.



Page 14                                                          Recommendations
MANAGEMENT   Management generally concurred with our recommendations.
COMMENTS




Page 15                                        Management Comments
Appendix A
SCOPE AND     We conducted the fieldwork portion of our review during the
METHODOLOGY   period of April 2001 to October 2001 at the Department of Energy
              (Energy) Headquarters. We interviewed officials from the
              Headquarters Office of Export Control Policy and Cooperation
              (ECPC Office), which is in the Office of Arms Control and
              Nonproliferation, Office of Defense Nuclear Nonproliferation,
              National Nuclear Security Administration. The ECPC Office is
              responsible for developing the Department’s export control
              guidance and maintaining applicable databases. In addition, we
              interviewed Energy contractor officials from Los Alamos National
              Laboratory, Lawrence Livermore National Laboratory, and the
              University of New Mexico regarding export control database
              concerns. We also collected pertinent data from Federal and
              contractor personnel affiliated with the Departments of Defense,
              State, Commerce, the Treasury, and the Central Intelligence
              Agency.

              We reviewed applicable laws, Executive orders, regulations, and
              Energy guidance regarding the automated system used by Energy
              for reviewing export license applications.

              As part of the FY 2002 export control review by an interagency
              working group comprised of representatives from the Offices of
              Inspector General of Energy, Defense, Commerce, State, and the
              Treasury, we also: (1) reviewed the adequacy of the current system
              used by Energy for export license processing; (2) determined the
              age of Energy’s system and its viability; (3) determined
              requirements including required information assurance standards
              for Energy and interagency exchange of export data; and
              (4) determined if Energy has programmed funds to operate and
              maintain a Federal licensing system for FY 2004 and the out years.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 16                                            Scope and Methodology
Appendix B
               STATUS OF RECOMMENDATIONS FROM PRIOR REPORTS

Section 1204 of the National Defense Authorization Act (NDAA) for Fiscal Year (FY) 2001,
amended Section 1402(b) of the NDAA for FY 2000 to require the Inspectors General to include
in each annual report the status of the implementation or other disposition of recommendations
that have been set forth in previous annual reports under Section 1402(b). The report entitled,
“Inspection of the Department of Energy’s Role in the Commerce Control List and the U.S.
Munitions List,” (INS-O-01-03), March 2001, did not contain recommendations.

The following is the current status of recommendations in the report entitled, “Inspection of the
Department of Energy’s Export License Process for Foreign National Visits and Assignments,”
(DOE/IG-0465), March 2000. Recommendations 1 and 4 were previously reported as closed.

Regarding Recommendation 2, we recommended that the Department ensure that a proposed
revision of the Energy Notice concerning unclassified foreign visits and assignments include the
principal roles and responsibilities for hosts of foreign national visitors and assignees.

The Department has reported that the recommendation is consistent with the current and ongoing
Energy initiative to update and clarify foreign visit and assignment policy. The Department
further reported that the new draft Energy Order 142.X, “Unclassified Visits and Assignments by
Foreign Nationals,” includes the principal roles and responsibilities for hosts of foreign national
visitors and assignees. The Department reported that the completion of this recommendation is
deferred because publication of this order was halted in March 2001 as part of a six-month hiatus
of publishing all security-related orders. The Department reported that the halt and six-month
hiatus are in response to the National Nuclear Security Administration (NNSA) and the Energy
Office of Science (SC) review of all outstanding security-related orders, policies, notices,
procedures, and processes.

Current Status : This recommendation remains open pending issuance of the Energy Order.

Regarding Recommendation 3, we recommended that the Department include a requirement for
Energy and Energy contractor officials to enter required foreign national visit and assignment
information into the Foreign Access Records Management System (FARMS), or a designated
central data base, in a complete and timely manner.

The Department has reported that a new Energy-wide information system, the Foreign Access
Centralized Tracking System (FACTS), has been developed and implemented. The Department
further advised that draft Energy Order 142.X includes the requirement for all sites to enter
required foreign national visit and assignment information into FACTS, in a complete and timely
manner. We determined that because this recommendation duplicates recommendation 8, we
consider recommendation 3 to be closed.

Current Status : This recommendation is closed. However, we will track this issue under
Recommendation 8.




Page 17                                     Status of Recommendations from Prior Reports
Regarding Recommendation 5, we recommended that the Department ensure that the
requirements in the revised Energy Notice for unclassified foreign national visits and
assignments are clearly identified and assigned to responsible officials or organizations.

The Department has reported that draft Energy Order 142.X includes clear identification of
requirements and assignments to responsible officials or organizations. The Department reported
that the completion of this recommendation is deferred because publication of this order was
halted in March 2001 as part of a six-month hiatus of publishing all security-related orders. The
Department reported that the halt and six-month hiatus are in response to the NNSA/SC review
of all outstanding security-related orders, policies, notices, procedures, and processes.

Current Status : This recommendation remains open pending issuance of the Energy Order.

Regarding Recommendation 6, we recommended that the Department ensure that guidance
issued by the Nuclear Transfer and Supplier Policy Office (now the Office of Export Control
Policy and Cooperation) to advise hosts of their responsibilities regarding foreign nationals
includes the appropriate level of oversight to be provided by the host during the period of the
visit or assignment.

The Department has reported that draft Energy Order 142.X includes the principal roles and
responsibilities for hosts of foreign national visitors and assignees. The Department reported that
the completion of this recommendation is deferred because publication of this order was halted
in March 2001 as part of a six-month hiatus of publishing all security-related orders. The
Department reported that the halt and six-month hiatus are in response to the NNSA/SC review
of all outstanding security-related orders, policies, notices, procedures, and processes.

Current Status : This recommendation remains open pending the issuance of the Energy Order.

Regarding Recommendation 7, we recommended that the Department revise the Energy policy
regarding foreign national visits and assignments to ensure that consistent information is being
maintained by Energy sites regarding foreign nationals visiting or assigned to work at the site.

The Department has reported that draft Energy Order 142.X requires development of consistent
information and input into FACTS. Actions are underway to implement standard templates to
upload historical information from Energy sites’ legacy systems into FACTS. The Department
reported that the completion of this recommendation is deferred because publication of this order
was halted in March 2001 as part of a six-month hiatus of publishing all security-related orders.
The Department reported that the halt and six-month hiatus are in response to the NNSA/SC
review of all outstanding security-related orders, policies, notices, procedures, and processes.

Current Status : This recommendation remains open pending the issuance of the Energy Order.

Regarding Recommendation 8, we recommended that the Department require that all Energy
sites having foreign national visitors or assignees enter information regarding the visits or
assignments into FARMS, or a designated central Energy database.




Page 18                                      Status of Recommendations from Prior Reports
The Department has reported that FACTS has been developed and implemented and that draft
Energy Order 142.X includes the requirement for all sites to enter required foreign national visit
and assignment information into FACTS, in a complete and timely manner. The Department
reported that the completion of this recommendation is deferred because publication of this order
was halted in March 2001 as part of a six-month hiatus of publishing all security-related orders.
The Department reported that the halt and six-month hiatus are in response to the NNSA/SC
review of all outstanding security-related orders, policies, notices, procedures, and processes.

Current Status : This recommendation remains open pending the issuance of the Energy Order.




Page 19                                     Status of Recommendations from Prior Reports
                                                                    IG Report No. DOE/IG-0533

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
